Genesis Credit® Pricing Summary
First Electronic Bank
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases
Paying Interest

29.9%

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

We will begin charging interest on purchases on the transaction date.

Fees
Annual Fee

None

Penalty Fees
• Late Payment
• Returned Payment

Up to $40
Up to $40

How We Calculate Your Balance: We use a method called “average daily balance (including new purchases)”. See your Account
Agreement below for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your below Account
Agreement.

Genesis Credit Account Agreement
Dear Accountholder:
This Agreement, as defined below, is your contract for your Account and:
• Covers the terms that govern the use of your Genesis Credit Account;
• Outlines both your responsibilities and ours;
• Includes certain disclosures required by the Federal Truth in Lending Act;
• Includes certain disclosures required by the Federal Military Lending Act;
• Includes an Arbitration of Disputes Provision that will substantially affect your rights unless you reject it, and;
• Contains important information about your Account.
We encourage you to read the Agreement and keep it for your records. Please feel free to call us with any questions you may have. We look forward to serving you.
This Agreement begins on the earlier of (1) the date we approve your Application, or (2) the first date that we extend Credit to you on your Account, as evidenced by a signed sales slip
or other evidence of indebtedness.
DEFINITIONS
To simplify this Agreement for you, the definitions listed below will apply throughout, both
in this Agreement and in your monthly statements. In addition, the words you, your, and
yours refer to the Accountholder(s) who hold(s) the Account Number and is responsible
for the Account, each of whom is individually and jointly obligated under this Agreement.
The words we, us, and our refer to First Electronic Bank.
Account: Genesis Credit Account for which you were issued an Account Number and
that is subject to all of the terms and conditions of this Agreement.
Account Number: The Account Number we issue that you may use to make Purchases
from Retailer. Use of your Account Number to obtain Credit will be considered a use of
the Account.
Accountholder: The person to whom an Account Number is issued, or who has agreed to
pay obligations arising from an Account Number issued to another person.
Agreement: Your contract with us for your Account, which is composed of your
Application, and the Account opening disclosures and this Account Agreement. Any
sales slip or other evidence of indebtedness on your Account is incorporated into and
made part of this Agreement.
Application: The form with information that you submitted to apply for your Account,
including your signature (in any form – wet signed, electronic, or digital), and any
acceptance certificate or other request that you signed or otherwise submitted to obtain
this Account.
Billing Cycle: The time interval covered by a monthly statement. Each Billing Cycle is
approximately 30 days in length.
Card: Any branded Card we issue that you may use to purchase goods or services from
Retailer. Use of your Card to obtain Credit will be considered use of the Account.
Closing Date: The date of the last day of a Billing Cycle.
Covered Borrower: Certain members of the Armed Forces and their dependents who are
protected by the Military Lending Act.

Regular Balance: The total outstanding balance of all amounts other than Purchases
and interest charges on Purchases.
Retailer: Participating Wayfair, LLC d\b\a Wayfair locations located in the U.S.
USING YOUR ACCOUNT
Purchases. You may use your Account to purchase goods and services from Retailer.
You promise to pay us and are liable for all amounts resulting from the authorized use of
your Account Number or Account, plus any applicable interest charges and other
applicable charges or fees, payable in U.S. dollars.
Your Credit Limit. You may not use your Account in any way that would cause you to
go over your Credit Limit. We may refuse to authorize or accept any transaction on your
Account if (1) that transaction would cause you to exceed your Credit Limit or (2) your
Account is delinquent. We may temporarily agree to allow you to exceed your Credit
Limit. If we do so, in that case, you must repay the excess amount according to the terms
of this Agreement. Any transactions honored in excess of your Credit Limit will not result
in an increase of your Credit Limit.
MAKING PAYMENTS
Monthly Statements. We will send a statement at the end of each monthly Billing Cycle
if there is a debit or credit balance on your Account of $1 or more, a balance on which an
interest charge has been imposed or as otherwise required by applicable law. You agree
to pay us, or any party to whom we may transfer and assign your Account or the amounts
owing under your Account, in U.S. dollars according to all terms and conditions of this
Agreement. Payments made by a check, money order or other negotiable instrument
must be in a form acceptable to us and drawn on a U.S. financial institution.
Monthly Minimum Payment. Your monthly minimum payment due will be the greater of:
1.
$15; or
2.
The sum of:
a.
Each fixed monthly payment amount applicable to each of
your Purchases (described below), plus
b.
5% of your Regular Balance.

Previous Balance: The balance of your Account at the beginning of a Billing Cycle. This
will be the same as the “New Balance” shown on the previous monthly statement.

Each Purchase will have a fixed monthly payment amount which we calculate when the
Purchase is posted to your Account. We determine the fixed monthly payment amount for
a Purchase by multiplying the Purchase amount by 5%, and then rounding the result to
the nearest dollar. If the remaining balance of a Purchase plus accrued interest on that
Purchase is less than the fixed monthly payment amount, we will reduce the fixed
monthly payment amount for that Purchase accordingly. We will continue to include the
fixed monthly payment amount for a Purchase in the monthly minimum payment due until
the Purchase plus accrued interest on that Purchase is paid in full.

Purchase: An extension of Credit to your Account for the purpose of purchasing goods or
services from Retailer.

If you make a payment in excess of the monthly minimum payment due for any month, it
will not reduce the fixed monthly payment amount applicable to any Purchase that is

Credit: The credit extension you receive under this Agreement.
Credit Limit: The maximum amount of Credit available to you on your Account. Your
Account Credit Limit will be disclosed to you on the monthly statements.
New Balance: The total outstanding Account balance on the Closing Date specified in
your monthly statement.

Purchase Balance: The total outstanding balance of Purchases and interest charges,
excluding amounts included in the Regular Balance.
Page 1 of 4
0000000000000000 000004 0002 0005 0 1 0 0 0

FEB 14025 2020V1
2oz - #10 - 4 - 11

used to calculate your monthly minimum payment due in subsequent months, but it may
result in your paying off a Purchase more quickly.
Your monthly minimum payment due also will include the greater of (i) any past due
amount, or (ii) any amount by which the New Balance exceeded your Credit Limit. Your
monthly minimum payment due will never exceed your New Balance.

applicable to the credit transaction or account: (1) the costs associated with credit
insurance premiums; (2) fees for ancillary products sold in connection with the credit
transaction; (3) any application fee charged (other than certain application fees for
specified credit transactions or accounts); and (4) any participation fee charged (other
than certain participation fees for a credit card account).

Payments should be mailed with the payment coupon and in the envelope provided and
following the other instructions on the monthly statement to Genesis FS Card Services,
P.O. Box 84049, Columbus, Georgia 31908. Any payment we receive in that form and at
that address on or before 5:00 P.M. Eastern Time on a normal banking day will be
credited to your Account that day. If we receive your payment in that form and at that
address after 5:00 P.M. Eastern Time on a normal banking day, or any time on a
non-banking day, we will credit it to your Account the next banking day. Please allow at
least seven (7) business days for postal delivery. Payments we receive at any other
location or in any other form may not be credited as of the day we receive them. If we
accept a payment at some other place, we may delay the crediting of the payment for up
to five (5) days. This may cause you to incur Late Payment Fees and additional interest
charges, and may result in your Account being declared in default.

Oral Disclosures In order to hear important disclosures and payment information about
this Agreement, you may call 1-866-875-5929.

When you provide a check as payment, you authorize us either to use information from
your check to make a one-time electronic fund transfer from your account or to process
the payment as a check transaction. When we use information from your check to make
an electronic fund transfer, funds may be withdrawn from your account as soon as the
same day we receive your payment and you will not receive your check back from your
financial institution.

OUR RIGHTS, AND HOW THEY AFFECT YOU

At any time, you may pay part or all you owe on your Account without incurring any
additional charge for prepayment. The amount of any payment that exceeds your total
New Balance will be applied as a credit to your Account, and any remaining credit
balance will be refunded as required by law.
Credit availability may be delayed at our sole discretion to ensure payment in good funds,
and your total Credit Limit may not reflect your payments for up to 14 days.
Application of Payments. For each Billing Cycle, we will allocate payment amounts up
to your monthly minimum payment to charges and principal due (including new
transactions) in any way we determine. We will generally apply payment amounts up to
your monthly minimum payment in a manner most favorable or convenient for us.
For each Billing Cycle, to the extent your payments exceed your monthly minimum
payment, we will apply these excess amounts in the order required by applicable law.
HOW INTEREST CHARGES ARE DETERMINED
Your Interest Rate. We use a daily periodic rate to calculate the interest on your
Account. The daily periodic rate is the applicable APR multiplied by 1/365. The daily
periodic rate for your Account is 0.0819% and the applicable APR is 29.9%.
When We Charge Interest. We charge interest on your Purchases from the date you
make the Purchase until you pay the Purchase in full.
How We Calculate Interest. We calculate interest separately for each balance segment
on your Account. We do this by applying the daily periodic rate to your average daily
balance (including new Purchases), and then multiplying the resulting number by the
number of days in the Billing Cycle for each balance segment. An average daily balance
is calculated for the following balance segments as applicable: Purchase Balance
segments and the Regular Balance segment.
We calculate interest for each balance segment as follows:
1. For each day, we take the beginning balance of each balance segment in
the Billing Cycle, including any unpaid interest charges, add any new
Purchases and debits, and then subtract the applicable portion of any
payments and credits. This gives us the daily balance. Late Payment Fees,
Returned Payment Fees, and Documentation Fees are not included in the
daily balance.
2. Then, we add all the daily balances for the Billing Cycle together and divide
the total by the number of days in the Billing Cycle. This gives us the
average daily balance.
3. Next, we multiply the daily periodic rate by the average daily balance.
4. Finally, we take the resulting number from #3 and multiply it by the number
of days in the Billing Cycle. This gives us the interest charge for each
balance segment for the Billing Cycle.
OTHER FEES
In addition to interest charges, other fees may be applied to your Account, as set forth
below. The amounts of these fees may change from time to time during the term of your
Account.
Late Payment Fee. If we do not receive your monthly minimum payment due by the
Closing Date of the Billing Cycle in which the Payment Due Date occurs and the amount
past due on your Account is more than $9.99, we will apply a Late Payment Fee to your
Account. The Late Payment Fee is $29 if we did not charge a Late Payment Fee during
any of the prior six billing periods. Otherwise, the Late Payment Fee is $40. The Late
Payment Fee will never exceed the amount of your most recently required monthly
minimum payment.
Returned Payment Fee. If any payment on your Account is returned to us unpaid for
any reason, we will apply a Returned Payment Fee to your Account. The Returned
Payment Fee is $29 if we did not charge a Returned Payment Fee during any of the prior
six billing periods. Otherwise, the Returned Payment Fee is $40. The Returned Payment
Fee will never exceed the monthly minimum payment.
Documentation Fee. You may request a copy of a monthly statement previously sent to
you for a Documentation Fee of $3 per statement, which fee we will charge to your
Account. Copies of sales tickets or other items posted to your Account may be obtained
for a Documentation Fee of $10 per sales ticket or other item, which will be applied to
your Account. Notwithstanding the foregoing, we will not impose any fee in connection
with a good faith assertion of a billing error or other exercise of your Billing Rights (see
below under “Your Billing Rights - Keep This Notice for Future Use”).
MILITARY LENDING ACT
The Military Lending Act provides protections for Covered Borrowers. The
provisions of this section apply to Covered Borrowers. If you would like more
information about whether you are a Covered Borrower, you may contact us at
1-866-502-6439.
Statement of MAPR Federal law provides important protections to members of the
Armed Forces and their dependents relating to extensions of consumer credit. In general,
the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an Annual Percentage Rate of 36%. This rate must include, as

Applicability of Arbitration of Disputes Provision
The Arbitration of Disputes Provision set forth in this Agreement does not apply to you if,
as of the date of this Agreement, you are a Covered Borrower.
LOST ACCOUNT NUMBER AND UNAUTHORIZED USE
If your Account Number is lost or stolen or used without your consent, you may be liable
for the unauthorized use of your Account, but you will not be liable for unauthorized use
that occurs after you notify us orally or in writing of the loss, theft or possible unauthorized
use at: Genesis FS Card Services, P.O. Box 4477, Beaverton, OR 97076,
1-888-260-4532. In any case, your liability will not exceed $50.
Telephone Monitoring and Recording; Communications. You consent and agree
that, except as restricted by applicable law, we may monitor and/or record telephone
calls regarding your Account, suppress caller identification services, use prerecorded
messages, and use an automated telephone dialing and announcing system. You
expressly consent that we and our agents, any servicer, or any subsequent owner of your
Account may (i) contact you at any cellular telephone number that you provided as part of
your application, at any number that you later provide (including, without limitation, after
your Account is in a default status), or at any other number that is identified as related to
you, including by text message, and (ii) use automated telephone dialing systems to
initiate such contacts and/or leave recorded messages.
If you provide us at any time with an email contact for your Account, you agree we may
use that email address to contact you about your Account and may send you information
about products and services related to your Account.
We or our representatives may contact you from time to time regarding the Account, or to
ask for additional information about you or your experience with us. You agree that such
contacts are not unsolicited and may include contacts at your home or place of
employment, during weekdays, weekends or holidays, on your mobile telephone,
voicemail or answering machine, or by email, fax, recorded message, text message or
personal visit.
How to Revoke Consent for Future Communications: If you want to revoke your
consent to future communications as described in the previous paragraph, you must
send us a written notice that includes: (i) your name, mailing address, and Account
number(s); (ii) the specific telephone number(s), email address(es) and/or mailing
address(es) at which you no longer wish us to contact you, and (iii) the types of
communications (telephone, text, email, and/or mail) for which you are revoking consent.
You must send this written notice to: Genesis FS Card Services, PO Box 4477,
Beaverton, OR 97076. You understand and agree that it may take up to three business
days after receipt of your written notice to process your request, and that you consent to
continued communications during this period of time.
Refunds. If Retailer agrees to give a refund, you will accept a credit on your Account
instead of a cash refund.
No Waiver of Rights; Disputed Amounts. We can accept late or partial payments
without losing any of our rights under this Agreement. You agree not to send us
partial payments marked “paid in full,” “without recourse,” or similar restrictive
language. If you send such a payment, we may accept it without losing any of our
rights under this Agreement. All written communications concerning disputed
amounts, including any check or other payment instrument that indicated that the
payment constitutes “payment in full” of the amount owed or that is tendered with
other conditions or limitations or as full satisfaction of a disputed amount, must be
mailed or delivered to Genesis FS Card Services, P.O. Box 4499, Beaverton, OR
97076.
Credit Reports and Information. You authorize us to make or have made any credit,
employment, or other investigative inquiries we deem appropriate to extend you Credit or
collect amounts owed to us on your Account. We (including any assignee of the Account
or amounts owing under the Account) may also obtain information about you from credit
reporting agencies or others at any time and use it for the purposes of monitoring your
credit performance, managing your Account and considering you for new offers and
programs.
Notice of Inaccurate Information. If you believe that we have information about you
that is inaccurate or that we have reported or may report to a credit reporting agency
information about you that is inaccurate, please notify us of the specific information that
you believe is inaccurate by writing to us at Genesis FS Card Services, P.O. Box 4499,
Beaverton, OR 97076.
Default and Collection. Unless prohibited by applicable law, your Account is
considered to be in default if (1) you fail to make the required monthly minimum payment
due on or before its payment due date, including if your payment is returned or cannot be
processed and you do not correct that failure within 31 days, (2) you try to exceed or do
exceed your Credit Limit without permission and do not bring your Account back under
your Credit Limit within 31 days, (3) you become subject to bankruptcy or insolvency
proceedings, (4) you become subject to attachment or garnishment proceedings, (5) you
give us any false information or signature, (6) you die, or (7) you fail to comply with any
portion of this Agreement. Our accepting a late or partial payment does not waive default.
Default on this Account will constitute default on all accounts you hold with us.
Subject to any notice of default and right to cure or other restrictions of applicable law, if
you are in default, we may declare the entire balance due immediately. Except as
provided in the Arbitration Provision below, you agree to pay our reasonable costs and
attorneys’ fees and expenses related to the collection of your Account to the extent
permitted by applicable laws.
Change of Terms. Subject to the limitations of applicable law, we may, at any time,
change or remove any of the terms and conditions of, or add new terms or
conditions to, this Agreement. If required by applicable law, we will mail written
notice of such a change to you in the manner required by such law. As of the
effective date, the changed or new terms will apply to new Purchases and to the
outstanding balance of your Account, subject to the limitations of applicable law.
Delay in Enforcement. We can delay enforcing our rights under this Agreement without
losing them.
OTHER PROVISIONS

Page 2 of 4
0000000000000000 000004 0003 0005 0 1 0 0 0

FEB 14025 2020V1
2oz - #10 - 4 - 11

Ownership and Use of Your Account. As the Accountholder(s), you are liable for all
Credit obtained under your Account. If you authorize another person to use your Account
Number, you are liable for any Credit obtained on your Account for as long as that
person holds or uses the Account Number. Misuse of your Account by an authorized
person will not be considered unauthorized use. See “Lost Account Number and
Unauthorized Use” above.
Transactions. You will retain for statement verification purposes your copy of each
Purchase transaction receipt from Retailer.
Refunds for Goods and Services. Refunds for goods and services are governed by
Retailer. Any refunds for goods or services purchased from Retailer through an extension
of Credit on your Account will be issued as a credit adjustment to your Account. When we
are notified by Retailer of any refund amount, we will subtract an amount equal to the
refund amount from your Account. However, the fixed minimum payment amount
attributable to the related Purchase transaction amount will continue to be included in
your monthly minimum payment. If a refund amount results in a credit balance on your
Account, we will refund your credit balance.
Transfer and Termination of Your Account. You may not transfer your Account to any
other person. We may assign your Account or amounts you owe on your Account, to any
other person at any time and the assignee will take our place under the Agreement with
respect to all agreements and interests transferred. You must pay the assignee and
otherwise perform your obligations under the assigned agreements and interests. Either
you or we may terminate or suspend your Credit privileges at any time, with or without
cause and with or without advance notice, but you will remain liable for all charges until
they are paid in full. You may cancel your Account at any time by writing to us at Genesis
FS Card Services, P.O. Box 4477, Beaverton, OR 97076. If you have a joint Account and
want to remove one of the names from the Account, we must receive a written request
signed by both of the Accountholders on the Account. No party is released from the
obligation for the balance owing on a joint Account, unless we agree to the arrangements
in writing. You may have to re-apply for an individual Account when you request a
change from a joint Account to an individual Account.
Additional Benefits and Services. From time to time, we may offer you benefits and
services with your Account. We or another party may provide these benefits and
services. Unless expressly made a part of this Agreement, and except as provided in the
Arbitration Provision below, any such benefits and services are not a part of this
Agreement, and are subject only to the terms and conditions outlined in the benefits or
services brochure and other official documents provided to you with respect to the
benefits and services. We may adjust, add, or delete benefits or services at any time in
accordance with the brochures or documents you receive. Except as required by
applicable law, we are not liable for benefits or services that other parties provide or for
their actions or omissions.
Honoring Your Account. We are not liable for the failure or refusal of Retailer to accept
your Account Number. Although you may have Credit available, we will not be liable for
the failure to authorize Credit due to operational difficulties or mistakes. Transactions
made above a certain dollar amount may require that we authorize the transaction before
the transaction is approved. In addition, we may limit the number and amount of daily
transactions approved for security reasons.
Change of Address, Employment and Telephone. We will send all written notices and
statements to your address as it appears on our records. To avoid delays and missed
payments that could affect your credit standing, you agree to promptly advise us if you
change your mailing address, place of employment, or telephone number.
Severability. In the event that any provision of this Agreement is determined to be invalid
or unenforceable for any reason, the remaining provisions will remain in effect.

that court.
YOU AGREE NOT TO PARTICIPATE IN A CLASS, REPRESENTATIVE OR PRIVATE
ATTORNEY GENERAL ACTION AGAINST US OR ANY SERVICER OF YOUR
ACCOUNT, INCLUDING, BUT NOT LIMITED TO, GENESIS, IN COURT OR
ARBITRATION. ALSO, YOU MAY NOT BRING CLAIMS AGAINST US OR ANY
SERVICER OF YOUR ACCOUNT, INCLUDING, BUT NOT LIMITED TO GENESIS, ON
BEHALF OF ANY ACCOUNTHOLDER WHO IS NOT A JOINT ACCOUNTHOLDER
WITH YOU (AN “UNRELATED ACCOUNTHOLDER”), AND YOU AGREE THAT NO
UNRELATED ACCOUNTHOLDER MAY BRING ANY CLAIMS AGAINST US OR ANY
SERVICER OF YOUR ACCOUNT, INCLUDING, BUT NOT LIMITED TO, GENESIS, ON
YOUR BEHALF. CLAIMS BY YOU AND AN UNRELATED ACCOUNTHOLDER MAY
NOT BE JOINED IN A SINGLE ARBITRATION. THE ARBITRATOR WILL NOT HAVE
THE POWER TO CONSIDER SUCH CLASS, REPRESENTATIVE OR PRIVATE
ATTORNEY GENERAL ACTIONS OR ANY SUCH CLAIMS YOU BRING ON BEHALF
OF AN UNRELATED ACCOUNTHOLDER.
Judgment on the arbitration award may be entered in any court having jurisdiction. Any
dispute regarding whether a particular controversy is subject to arbitration, or the
applicability or enforceability of the foregoing paragraph, will be decided by a court and
not by an arbitrator.
If you or we or any servicer of your Account, including, but not limited to, Genesis, elect to
arbitrate a claim, the electing party must notify the other party in writing. The notice can
be given after the beginning of a lawsuit and can be given in papers filed in the lawsuit.
Otherwise, your notice must be sent to Genesis FS Card Services, Inc., Attn: Arbitration
Demand, P.O. Box 4477, Beaverton, Oregon 97076, and our notice must be sent to the
most recent address for you in our files. The arbitration will be administered by the
American Arbitration Association (the “AAA”) under its rules in effect at the time an
arbitration is commenced that are applicable to the resolution of consumer disputes (the
“Arbitration Rules”). We will tell you how to contact the AAA and how to get a copy of the
Arbitration Rules without cost if you ask us in writing to do so. The Arbitration Rules
permit you to request deferral or reduction of the administrative fees of arbitration if
paying them would cause you a hardship. In addition, if you ask us in writing, we will
consider your request to pay any or all of your costs of arbitration.
Each arbitrator shall be a licensed attorney who has been engaged in the private practice
of law continuously during the ten years immediately preceding the arbitration or a retired
judge of a court of general or appellate jurisdiction. The arbitration award shall award
only such relief as a court of competent jurisdiction could properly award under
applicable law, including attorneys’ fees if allowed by applicable law or agreement. All
statutes of limitation, defenses, and attorney-client and other privileges that would apply
in a court proceeding will apply in the arbitration.
If any provision of this Section regarding arbitration of disputes shall be deemed to be
unenforceable, the remainder of this Section shall be given full force and effect. However,
if the provision precluding class, representative or private attorney general Claims in
arbitration is deemed unenforceable, then this entire Arbitration Agreement shall be void
and of no force and effect.
You may reject this provision, in which case only a court may be used to resolve any
dispute or claim. Rejection will not affect any other aspect of the Agreement. To reject
this Provision, you must send us a notice within sixty (60) days after you open your
Account or we first provide you with a right to reject this Provision. This notice must
include your name, address and Account Number and be mailed to Genesis FS Card
Services, Inc., Attn: Arbitration Provision, P.O. Box 4477, Beaverton, Oregon 97076. This
is the only way you can reject this Provision.
YOUR BILLING RIGHTS – KEEP THIS NOTICE FOR FUTURE USE

Entire Agreement; Interpretation. This Agreement (including the other documents
incorporated herein by reference as discussed above) constitutes the final expression of
the credit agreement between you and us relating to your Account. The headings used in
this Agreement are for the convenience of reference only and are not intended to define
or describe the scope or intent of any portion of the Agreement.

This notice tells you about your rights and our responsibilities under the Fair Credit Billing
Act.

Governing Law. Except as expressly set forth in the Arbitration of Disputes Provision in
the Agreement, this Agreement and the interpretation and enforcement thereof (including
but not limited to the exportation of interest rates) will be governed by Federal law that
applies to us and, to the extent not preempted by Federal law, the laws of the State of
Utah, without regard to its conflicts of law provisions and principles. If there is any conflict
between any of the terms and conditions of the Agreement and applicable Federal or
State law, this Agreement will be considered changed to the extent necessary to comply
with the applicable law.

In your letter, give us the following information:
• Account information: Your name and Account Number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.

Arbitration of Disputes Provision. PLEASE READ THIS ARBITRATION OF
DISPUTES PROVISION CAREFULLY. UNLESS YOU SEND US THE REJECTION
NOTICE DESCRIBED BELOW, THIS PROVISION WILL APPLY TO YOUR ACCOUNT,
AND MOST DISPUTES BETWEEN YOU, ON THE ONE HAND, AND US OR ANY
SERVICER OF YOUR ACCOUNT, INCLUDING, BUT NOT LIMITED TO, GENESIS FS
CARD SERVICES, INC. (“GENESIS”), ON THE OTHER HAND, WILL BE SUBJECT TO
INDIVIDUAL ARBITRATION. THIS MEANS THAT: (1) NEITHER A COURT NOR A
JURY WILL RESOLVE ANY SUCH DISPUTE; (2) YOU WILL NOT BE ABLE TO
PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING; (3) LESS
INFORMATION WILL BE AVAILABLE; AND (4) APPEAL RIGHTS WILL BE LIMITED.
THIS ARBITRATION OF DISPUTES PROVISION DOES NOT APPLY TO YOU IF, AS
OF THE DATE OF THIS AGREEMENT, YOU ARE A MEMBER OF THE ARMED
FORCES OR A DEPENDENT OF SUCH MEMBER ENTITLED TO PROTECTION
UNDER THE FEDERAL MILITARY LENDING ACT. PLEASE SEE THE SECTION OF
THIS AGREEMENT LABELED “MILITARY LENDING ACT.” IF YOU WOULD LIKE
MORE INFORMATION ABOUT WHETHER YOU ARE ENTITLED TO PROTECTION
UNDER THE FEDERAL MILITARY LENDING ACT, YOU MAY CONTACT US AT
1-866-502-6439.
This provision replaces any existing arbitration provision with us and will stay in force no
matter what happens to your Account, including the closing of your Account. Except as
expressly provided below, you must arbitrate individually, by binding arbitration under the
Federal Arbitration Act (“FAA”), any dispute or claim between you, on the one hand, and
us , our affiliates, and agents, and/or any servicer of your Account, including, but not
limited to, Genesis, on the other hand, if the dispute or claim arises out of or is related to
(a) this Agreement (including without limitation, any dispute over the validity of this
Agreement to arbitrate disputes or of this entire Agreement), or (b) your Account, or (c)
any relationship resulting from this Agreement, or (d) any insurance or other service
related to your Account, or (e) any other agreement related to your Account (including
prior agreements) or any such service, or (f) breach of this Agreement or any other such
agreement, whether based on statute, contract, tort or any other legal theory (any
“Claim”). However, we will not require you to arbitrate any individual Claims in small
claims court or your state’s equivalent court, so long as it remains an individual case in

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, please write to us at: Genesis FS Card
Services, P.O. Box 4499, Beaverton, OR 97076.

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least three (3) business days before an automated payment is scheduled,
if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are
not required to investigate any potential errors, and you may have to pay the amount in
question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent
on that amount.
• The charge in question may remain on your statement, and we may continue
to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.
• We can apply any unpaid amount against your credit line.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will then send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we must let those

Page 3 of 4
0000000000000000 000004 0004 0005 0 1 0 0 0

FEB 14025 2020V1
2oz - #10 - 4 - 12

organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question, even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Account Purchases
If you are dissatisfied with the goods or services that you have purchased with your
Account, and you have tried in good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The Purchase must have been made in your home state or within 100 miles
of your current mailing address, and the Purchase price must have been
more than $50. (Note: Neither of these are necessary if your Purchase was
based on an advertisement we mailed to you, or if we own the company that
sold you the goods or services.)
2. You must have used your Account for the Purchase. Purchases made with
cash advances from an ATM or with a check that accesses your Account do
not qualify.
3. You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still dissatisfied with the Purchase, contact
us in writing at: Genesis FS Card Services, P.O. Box 4499, Beaverton, OR 97076.
While we investigate, the same rules apply to the disputed amount as discussed above.
After we finish our investigation, we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as delinquent.
Your Genesis Credit Account is issued by:
First Electronic Bank

Page 4 of 4
0000000000000000 000004 0005 0005 0 1 0 0 0

FEB 14025 2020V1
2oz - #10 - 4 - 12

